No.
IN THE SUPREME COURT OF THE UNITED STATES
MARCH 2021 TERM

 

JORGE LUIS ROSA-HERNANDEZ
Petitioner

¥

UNITED STATES OF AMERICA
Respondent

 

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

Petitioner, Jorge Luis Rosa-Hernandez, pursuant to Title 18, United States
Code, Section 3006A(d)(6) and Rule 39 of the United States Supreme Court, asks
leave to file the attached Petition for Writ of Certiorari without prepayment of costs,
and to proceed in forma pauperis. Pursuant to an appointment under the Criminal
Justice Act of 1964, as amended, defense counsel was appointed to represent the
Petitioner in the United States District court for the Middle District of
Pennsylvania and the United States Court of Appeals for the Third Circuit.

Respectfully submitted,

THOMAS, THOMAS & HAFER, LLP

   

Esquire
Attorney [D#55741
PO Box 999
Harrisburg, PA 17108
(717) 441-3952 - Phone
(717) 287-7105 - Fax
Attorney for Petitioner, Jorge Luis Rosa-
Hernandez

   

Date: 3/afal
